On March 20,. 1990, OIG received an allegation of noncom~liance

                                                 enter,

The suspected noncompliance was based on a publication co-
authored by the subject and two other investigator~. The
acknowledgment line in the paper read "This research was
supported by the National Science Foundation" implying that all
work reported in the paper had Foundation support.      The paper
reported that using recombinant-DNA techniques, certain organisms
were given new properties that could potentially cause
undesirable effects if the organisms were accidentally released
into the environment. These experiments, it was alleged, did not
have Institutional Biosafety Committee (IBC) approvals as
required by the NIH guidelines which NSF imposes on its awards as
a grant condition.
Expert advice was that approvals were required for some of the
experiments reported in the paper and that the IBC approvals
available at that time from the involved institutions did not
appear to cover these experiments.
After determining who performed specific parts of the scientific
work described in the paper and that the work was actually
conducted at two different universities,,OIGconcluded that:
--There was no violation of NIH Guidelines on Recombinant DNA by
the subject (NSF-funded awardee) because no experiments performed
at his university required IBC approval.
--All experiments requiring IBC approvals were conducted by the
lead author on the publication who did not have any NSF support.

--The acknowledgment in the paper should have indicated that NSF
provided only partial support for the published work.
--Required IBC approvals for the regulated experiments at the
lead author's institution appeared too broad and did not
adequately relate to the experiments reported in the paper,
although the IBC chairman at the lead author's institution
claimed to the contrary and said that his IBC understood that the
experiments reported in the paper were covered by its approval
documents.
No actions were recommended against any researcher.
OIG reported findings to the cognizant NSF program officials,
the co-authors of the paper, and the chairman of the IBC at the
lead author's institution.


cc:   Inspector General
